          Office of Audits
          Office of Inspector General
          U.S. General Services Administration




           Audit of Contractor
           Team Arrangement Use
           Report Number A130009/Q/A/P14004
           September 8, 2014




A130009/Q/A/P14004
                      Office of Audits
                      Office of Inspector General
                      U.S. General Services Administration


                                      REPORT ABSTRACT
                              Audit of Contractor Team Arrangement Use
OBJECTIVES                    Report Number A130009/Q/A/P14004
The audit objectives were to: September 8, 2014
(1) determine the extent to
which contracting officers     WHAT WE FOUND
follow existing guidance and
regulation in the              We identified the following during our audit:
administration of contractor
team arrangements, and (2)     Finding 1 – Limited instruction, informal guidance, and minimal
assess contracting officer     experience inhibit proper contractor team arrangement administration.
awareness of risk in
improperly administering
                               Finding 2 – Contracting system limitations hinder contracting officers’
team arrangements.             ability to administer team arrangements and reduce associated risks.



                               WHAT WE RECOMMEND
                               Based on our audit findings, we recommend the Commissioner of the
                               Federal Acquisition Service:
                                  1. Strengthen guidance by:
                                         a. Developing Federal Acquisition Service policies specific
                                            to contractor team arrangements; and
                                         b. Providing instruction and training to contracting officers
                                            and schedule contractors on the use of contractor team
                                            arrangements.
                                  2. Develop a centralized internal identification and tracking
                                     methodology for contractor team arrangements.
                               MANAGEMENT COMMENTS
Acquisition Programs           The Commissioner of the Federal Acquisition Service concurred with
Audit Office                   the audit report findings and recommendations. Management’s written
1800 F Street NW               comments to the draft report are included in their entirety as Appendix
Room 5215                      B.
Washington D.C. 20405
(202) 273-7370




      A130009/Q/A/P14004                         i
                   Office of Audits
                   Office of Inspector General
                   U.S. General Services Administration

 DATE:             September 8, 2014
 TO:               Thomas A. Sharpe, Jr.
                   Commissioner, Federal Acquisition Service (Q)

 FROM:             Michelle L. Westrup
                   Audit Manager, Acquisition Programs Audit Office (JA-A)
 SUBJECT:          Audit of Contractor Team Arrangement Use
                   Report Number A130009/Q/A/P14004

This report presents the results of our audit of contractor team arrangement use. Our
findings and recommendations are summarized in the Report Abstract. Instructions
regarding the audit resolution process can be found in the email that transmitted this
report.

Your written comments to the draft report are included in Appendix B of this report.

If you have any questions regarding this report, please contact me or any member of
the audit team at the following:

Michelle Westrup      Audit Manager            michelle.westrup@gsaig.gov (816)926-8605
Lisa Rowen            Auditor-In-Charge        lisa.rowen@gsaig.gov       (202)273-7379
Jeremy Martin         Auditor                  jeremy.martin@gsaig.gov    (202)273-7378

On behalf of the audit team, I would like to thank you and your staff for your assistance
during this audit.




A130009/Q/A/P14004                        ii
Table of Contents
Introduction .............................................................................................................. 1

Results
Finding 1 – Limited instruction, informal guidance, and minimal experience inhibit
            proper contractor team arrangement administration. ............................... 2
Finding 2 – Contracting system limitations hinder contracting officers’ ability to
            administer team arrangements and reduce associated risks. .................. 3
Other Observations. ................................................................................................... 3
Recommendations. .................................................................................................... 4
Management Comments. ........................................................................................... 4
Conclusion................................................................................................................ 5

Appendixes
Appendix A – Purpose, Scope, and Methodology ............................................. A-1
Appendix B – Management Comments .............................................................. B-1
Appendix C – Report Distribution ....................................................................... C-1




     A130009/Q/A/P14004                                        iii
Introduction
A Schedule contractor team arrangement (team arrangement) is an agreement between
two or more Multiple Award Schedule (schedule) contractors to work together to meet
customer agency contracting needs. The team members develop a team arrangement,
independent from the Government, which cannot conflict with the underlying terms and
conditions of their separate schedule contracts. The team arrangement is documented
in a written agreement that details the responsibilities of each team member.

A team arrangement allows contractors to complement each other’s capabilities in order
to provide a total solution that combines the supplies and/or services from the team
members’ individual Schedule contracts. 1 It also allows contractors, especially small
businesses, to compete for orders they may not qualify for independently. Customer
agencies benefit from team arrangements because they can procure a total solution to
satisfy their requirements, rather than separate purchases from multiple contractors.

Objectives

The audit objectives were to: (1) determine the extent to which contracting officers
follow existing guidance and regulation in the administration of contractor team
arrangements, and (2) assess contracting officer awareness of risk in improperly
administering team arrangements.

To answer the objectives, we examined Federal Acquisition Service (FAS) Assisted
Acquisition Services’ (Assisted Acquisitions) contract awards for team arrangements
from October 2011 through July 2013. FAS provided us with a universe of contract
awards for team arrangements. This universe was incomplete, inaccurate, and
unverifiable. Therefore, our audit results are limited to the seven delivery and task
orders awarded under three blanket purchase agreements (BPAs) that we could confirm
as team arrangements. 2 In addition to reviewing the delivery and task orders, we also
interviewed Assisted Acquisitions contracting officers and their respective supervisors
for each BPA and order.

See Appendix A – Purpose, Scope, and Methodology for additional details.




1
  Contractors can form team arrangements to meet customer agency contracting needs in response to a
blanket purchase agreement and/or individual delivery and task orders.
2
  Refer to the Report Qualification section in Appendix A for details.


A130009/Q/A/P14004                          1
Results
Generally, contracting personnel are following existing FAS guidance for team
arrangements; however, we identified specific instances of improperly administered
team arrangements. We found that contracting officers are aware of risks associated
with improper administration of team arrangements, but contracting system limitations
hinder their ability to mitigate these risks.

Finding 1 – Limited instruction, informal guidance, and minimal experience inhibit
proper contractor team arrangement administration.

Assisted Acquisitions contracting officers have been provided minimal instruction and
have received no formal training relating to the award and administration of team
arrangements. While FAS issued guidance on team arrangements, some is only
suggestive rather than mandatory resulting in inconsistent application of the guidance.
This, in addition to the fact that contracting personnel admitted they have limited
experience with these types of awards, has led to instances of improper administration
of team arrangements.

For one BPA Request for Quotation (RFQ) that we analyzed, the awarded team of
contractors responded to the RFQ without a team arrangement agreement. 3 However,
the RFQ did not state that respondents needed to submit a team arrangement
agreement.      FAS’s guidance recommends that contractors submit their team
arrangement agreements along with their proposal in response to the RFQ, but it is not
a requirement. Without this requirement, contractors may not properly respond. Also,
contracting officers may not be aware that a team arrangement exists thereby causing
an inaccurate or incomplete evaluation of offers.

In all seven orders that we examined, contracting officers only performed excluded
parties checks on the team arrangement team lead. The same check was not
conducted on any other team member. The contracting officer is required to review
each team member for exclusions in the System for Award Management in accordance
with Federal Acquisition Regulation 9.405(d)(1-4). Without proper administration of
these checks, the Government risks award to excluded contractors. During interviews,
contracting officers confirmed they only performed checks on the team lead and agreed
that it would be valuable if they checked all team members. The omissions occurred
because the team lead is the only contractor identified and tracked in contracting
systems as the awardee. 4 However, each team member is a prime contractor and
should be treated as such.



3
  The contracting officer obtained the agreement after two rounds of clarification letters to the contractor
prior to contract award.
4
  Contracting systems referred to in this report include governmentwide systems such as the Federal
Procurement Data System – Next Generation and Contractor Performance Assessment Reports System,
as well as internal contract management systems used within FAS.


A130009/Q/A/P14004                               2
Finding 2 – Contracting system limitations hinder contracting officers’ ability to
administer team arrangements and reduce associated risks.

The internal and governmentwide contracting systems used by Assisted Acquisitions for
inputting, collecting, and disseminating procurement data do not contain a data identifier
for team arrangements. Therefore, Assisted Acquisitions cannot accurately identify or
track team arrangements. System limitations, specifically the lack of a data identifier,
obstruct contracting officers’ knowledge of team arrangements and thus hinder their
ability to properly administer team arrangements and to reduce risk.

During discussions with Assisted Acquisitions contracting officers, we learned that the
contracting systems allow only one contractor to be identified for each BPA and order.
However, under a team arrangement, each member has privity of contract with the
Government and can interact directly with the Government as a prime contractor. This
system limitation generally causes the team lead to be treated as the only prime
contractor, which is inaccurate and can negatively impact contract administration. One
example of this is that performance ratings would only be directed toward the team lead
and not necessarily toward the member performing the work. This results in inaccurate
or skewed performance evaluations of team members and also inaccurately impacts the
governmentwide past performance information on those contractors. In addition, the
contractor identified as the team lead under a BPA usually continues as such for all
BPA orders. This occurs regardless of whether or not that contractor is performing the
majority of the work or is best suited to take the lead on a particular order.

Other Observations

In two orders, the invoices submitted by the team lead listed charges for subcontractors,
when in fact they were charges for team member(s). As stated previously, team
arrangement members are not subcontractors but equal prime contractors. This billing
practice could cause confusion, as team members are allowed to use subcontractors. It
also indicates a misunderstanding of team arrangements and how they should be
administered.

In two separate orders, the team member fulfilling the orders reported lower sales than
the team lead invoiced. While it is allowable that the team lead submit an invoice on
behalf of all team members, GSA recommends that payment be made to each team
member. GSA recognizes, however, that there may be instances where it is
advantageous for payment to be made to the team lead who, in turn, pays each team
member. When team leads complete all invoicing, there is opportunity to add
administrative costs to those of its team members’ products and/or services. The
addition of administrative costs diminishes the overall value of customer agencies’ total
solutions.




A130009/Q/A/P14004                      3
Recommendations

We recommend that the Commissioner of the Federal Acquisition Service:

   1. Strengthen guidance by:
         a. Developing Federal Acquisition Service policies specific to contractor team
            arrangements; and
         b. Providing instruction and training to contracting officers and schedule
            contractors on the use of contractor team arrangements.
   2. Develop a centralized internal identification and tracking methodology for
      contractor team arrangements.

Management Comments

The Commissioner of the Federal Acquisition Service concurred with the audit report
findings and recommendations. Management’s written comments to the draft report are
included in their entirety as Appendix B.




A130009/Q/A/P14004                     4
Conclusion
Generally, the existing contractor team arrangement guidance is followed; however, we
identified specific instances of improperly administered team arrangements. In addition,
FAS should clarify and strengthen existing guidance to prevent mismanagement.
Contracting personnel admitted they have limited experience with team arrangements
and have not received formal instruction regarding their administration. This is a
primary contributing factor to improper administration.

Contracting officers are aware of some risks associated with improper administration,
but contracting system limitations hinder their ability to mitigate team arrangement risks.
In addition, FAS does not have a tracking method to identify team arrangements.
Without complete and accurate data on team arrangements, FAS cannot gather reliable
information (e.g., how often they occur, where they occur) or identify and address
potential issues.




A130009/Q/A/P14004                       5
Appendix A – Purpose, Scope, and Methodology
Purpose

This audit was included in the General Services Administration Office of Inspector
General Fiscal Year 2013 Audit Plan.

Scope

The audit scope was limited to a manual data submission of the Assisted Acquisitions’
awards to team arrangements from October 2011 through July 2013. These consisted
of seven delivery and task orders awarded under three BPAs.

Methodology

To accomplish our objectives, we:

   •   Reviewed FAS’s Multiple Award Schedule guidance on contractor team
       arrangements.
   •   Obtained a manual data submission of delivery and task orders that Assisted
       Acquisitions awarded under BPAs to team arrangements from October 2011
       through July 2013.
   •   Examined the files of the BPAs and orders awarded to team arrangements.
   •   Interviewed the contracting officers and their respective supervisors responsible
       for the orders we examined.

We conducted the audit between June and December 2013 in accordance with
generally accepted government auditing standards. Those standards require that we
plan and perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit objectives. We
believe that the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives.

Internal Controls

The scope of our work was limited to addressing the objectives of this audit. Thus, our
assessment and evaluation of internal controls was restricted to those issues identified
in the Results and Report Qualification sections of this report.

Report Qualification

We determined that the team arrangement data provided was incomplete, inaccurate,
and unverifiable, thus limiting our audit results. FAS does not track team arrangements
at the contract or order level. Assisted Acquisitions compiled the data universe through
a manual data call based on contracting officers’ memories. They initially submitted 11



A130009/Q/A/P14004                    A-1
orders awarded within the audit time frame; however, we found an additional order that
applied to the audit scope. We also confirmed that 5 of the original 11 orders provided
were actually not team arrangements but prime-subcontractor relationships. This
resulted in the seven orders that made up our scope.




A130009/Q/A/P14004                    A-2
Appendix B – Management Comments




A130009/Q/A/P14004    B-1
A130009/Q/A/P14004   B-2
A130009/Q/A/P14004   B-3
Appendix C – Report Distribution
Commissioner, Federal Acquisition Service (Q)

Deputy Commissioner, Federal Acquisition Service (Q1)

Chief of Staff, Federal Acquisition Service (Q0A)

Controller, Federal Acquisition Service (BF)

Acting Assistant Commissioner, Office of Acquisition Management (QV)

Assistant Commissioner, Office of Assisted Acquisition Services (QF)

Deputy Assistant Commissioner, Office of Assisted Acquisition Services (QF1)

Associate Administrator for Governmentwide Policy (M)

Branch Chief, GAO/IG Audit Response Branch (H1C)

Assistant Inspector General for Auditing (JA)

Deputy Assistant Inspector General for Investigations (JID)

Director, Audit Planning, Policy, and Operations Staff (JAO)




A130009/Q/A/P14004                     C-1
